Report No. D-2008-008          October 30, 2007




        Defense Finance and Accounting
        Service Columbus Processes for
          Consolidating and Compiling
         Other Defense Organizations
                 Financial Data
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
DBMS                  Defense Business Management System
DDRS-B                Defense Departmental Reporting System-Budgetary
DCAA                  Defense Contract Audit Agency
DCMA                  Defense Contract Management Agency
DeCA                  Defense Commissary Agency
DFAS                  Defense Finance and Accounting Service
DHRA                  Defense Human Resource Activity
DLA                   Defense Logistics Agency
DTIC                  Defense Technical Information Center
FBWT                  Fund Balance with Treasury
GLAC                  General Ledger Account Code
JV                    Journal Voucher
NDSTF                 National Defense Stockpile Transaction Fund
ODOs                  Other Defense Organizations
SOPs                  Standard Operating Procedures
USSGL                 United States Standard General Ledger
                              INSPECTOR GENERAL
 

                             DEPARTMENT OF DEFENSE
 

                              400 ARMY NAVY DRIVE
 

                         ARLINGTON, VIRGINIA 22202-4704
 




                                                                          October 30, 2007

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/
                 CHIEF FINANCIAL OFFICER
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE COLUMBUS

SUBJECT:	 Report on Defense Finance and Accounting Service Columbus Processes for
          Consolidating and Compiling Other Defense Organizations Financial Data
          (Report No. D-2008-008)


      Weare providing this report for review and comment. We considered
management comments on a draft when preparing the final report.

        DoD Directive 7650.3 requires that all recommendations be resolved promptly.
Office of Under Secretary of Defense (Comptroller)/ChiefFinancial Officer and Defense
Finance and Accounting Service comments were not responsive. Therefore, we request
that the Under Secretary of Defense (Comptroller)/ChiefFinancial Officer provide
additional conunents to Recommendation 1. and the Director, Defense Finance and
Accounting Service Columbus provide additional comments to Recommendation 2. by
December 31, 2007.

        If possible, please send management comments in electronic format (Adobe
Acrobat file only) to Auddfs@dodig.mil. Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the / Signed /
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).

        We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Marvin (Leon) Peek at (703) 325-5777 (DSN 221-5777) or Mr. Scott S.
Brittingham at (703) 325-6104 (DSN 221-6104). See Appendix C for the report
distribution. The team members are listed inside the back cover.

                                By direction of the Deputy Inspector General for Auditing:




                                      fer Paul J. Granetto, CPA
                                Assistant Inspector General and Director
                                  Defense Financial Auditing Service
                Department of Defense Office of Inspector General
Report No. D-2008-008                                                     October 30, 2007
   (Project No. D2006-D000FA-0098.000)

      Defense Finance and Accounting Service Columbus Processes
            for Consolidating and Compiling Other Defense
                     Organizations Financial Data

                                 Executive Summary

Who Should Read This Report and Why? Personnel at Defense Finance and
Accounting Service (DFAS) and accounting offices supporting the Other Defense
Organizations (ODOs), and users of the DoD agency-wide financial statements can
benefit from the results of this audit. Process improvements will increase the
accountability, reliability, and auditability of the financial statements for the ODOs.

Background. The ODOs include the activities funded with Treasury Index 97 funds.
The ODO financial information is consolidated into ODO General and Working Capital
Funds. The Financial Reporting Division of DFAS Columbus provides financial
reporting support for eight ODOs. DFAS Columbus compiles and consolidates financial
data for the ODOs and submits the financial information to DFAS Indianapolis for
inclusion in DoD agency-wide statements.

Results. DFAS Columbus did not have adequate controls over its processes to adjust
ODO financial data and did not always have audit trails necessary to verify the validity
and accuracy of financial data adjustments. As a result, DFAS Columbus made
$8.6 billion (absolute value) in adjustments to U. S. Standard General Ledger accounts
for FY 2006 that were not documented and approved or substantiated by an audit trail.
DFAS Columbus also prepared and approved $535 million (absolute value) in journal
vouchers for FY 2006 that were not posted to U. S. Standard General Ledger accounts or
could not be substantiated by an audit trail. These discrepancies caused a $7.6 billion
(absolute value) difference between the actual account balances used in preparing the
ODO financial statements and the journal voucher-derived account balances. Without
effective controls to ensure that adjustments to financial data were valid, accurate, and
approved, there was increased risk of material misstatement to the financial statements.

The Office of the Under Secretary of Defense (Comptroller)/Chief Financial Officer
should revise and clarify DoD Regulation 7000.14-R and DoD Quarterly Guidance,
Attachment 6C to require DoD to document, approve, and report financial data crosswalk
adjustments. DFAS Columbus should develop and implement SOPs to ensure that:
adjustments are documented and approved; all prepared and approved journal vouchers
are recorded in the proper posting accounts; and the adjusted ending trial balances are
reconciled to journal voucher-derived account balances. We also reviewed the DFAS
Columbus managers’ internal control program as it related to the compilation and
consolidation of ODO financial data and determined that DFAS Columbus should expand
the scope of its managers’ internal control program to ensure all adjustments to financial
data are processed and properly approved. See the Finding section of the report for the
detailed recommendations.
Management Comments and Audit Response. The Acting Deputy Chief Financial
Officer nonconcurred with the recommendation to revise the DoD Financial Management
Regulation 7000.14-R and DoD Quarterly Guidance to require DoD to document the
crosswalk of financial data from noncompliant financial systems to the U. S. Standard
General Ledger and to prepare journal vouchers for those adjustments.

The DoD Regulation 7000.14-R and DoD Quarterly Guidance are vague when
addressing the crosswalk of financial data. However, in our opinion, the guidance
requires that documentation and information. We made the recommendation based on
the published guidance and discussions with personnel from the Office of the Deputy
Chief Financial Officer concerning the intent of that guidance. Accounting system
documentation must be readily available and sufficient to demonstrate to auditors the
conceptual processes and procedures describing corrections for deviations from Federal
Accounting Requirements.

The Deputy Director, DFAS Columbus nonconcurred with the finding and the
recommendation to develop and implement standard operating procedures for
crosswalking financial data, documenting and supporting adjustments with an approved
journal voucher, preparing journal vouchers in accordance with DoD Financial
Regulation 7000.14-R, and reconciling adjusted ending trial balances to journal voucher-
derived account balances. In addition, the Deputy Director nonconcurred with the
recommendation to expand the scope of the DFAS Columbus managers’ internal control
program and self-evaluation process. The Deputy Director stated that the
recommendations have been overcome by events resulting from continuous
enhancements to the DFAS Columbus management control program and the
implementation of the Defense Departmental Reporting System-Budgetary.

Deputy Director DFAS Columbus strong disagreements give the appearance of an
internal control environment where verbal assurances and experience are more important
than written documentation. We understand DFAS Columbus reluctance to provide
extensive documentation and standard operating procedures for a process that is
scheduled to be replaced. However, management’s strong contention that it already has
adequate trails and documentation for its existing processes suggests that emphasis may
not be placed on documenting the new processes when the Defense Departmental
Reporting System-Budgetary (DDRS-B) is fully implemented. We did not review the
capabilities of DDRS-B because it had not been fully implemented during the audit. We
recognize that the report is being issued 9 months after we initially discussed the
problems pertaining to the first quarter of FY 2006. However, our efforts to respond
fairly to DFAS opposition to our conclusions have taken considerable time. After
DDRS-B is fully implemented and the existing Excel workbooks have been replaced
would be an opportune time for us to revisit the DFAS Columbus controls and its control
environment. We hope that DFAS Columbus will focus the energy that was directed at
minimizing the significance of the problems identified, to develop robust, documented
and supportable internal controls and audit trails and a control environment that
welcomes a critical look at controls over the compilation process.

We request that the Under Secretary of Defense (Comptroller)/Chief Financial Officer
and the Director, Defense Finance and Accounting Service Columbus comment on this
report by December 31, 2007. See the Finding section of the report and Appendix D for
a discussion of management comments. See the Management Comments section of the
report for the complete text of comments.



                                           ii
Table of Contents 


Executive Summary                                                        i


Background                                                               1


Objectives                                                               3


Review of Internal Controls                                              3


Finding
     Controls over Adjustments to Financial Data for Other Defense 

          Organizations                                                  4

Appendixes
     A.   Scope and Methodology                                         24 

     B.   Journal Voucher Categories                                    26 

     C.   Report Distribution                                           27 

     D.   Summary of Management Comments on the Finding and Audit 

            Responses                                                   29

Management Comments
     Under Secretary of Defense (Comptroller)/Chief Financial Officer   33 

     Defense Finance and Accounting Service Columbus                    35 

Background 

           Other Defense Organizations. Other Defense Organizations (ODOs) are the
           activities funded with Treasury Index 97 funds (also referred to as
           Department 97). The ODO financial information is consolidated into the ODO
           General and Working Capital Funds. The Office of Management and Budget
           does not require DoD to prepare stand-alone audited financial statements for the
           ODO General and Working Capital Funds. However, ODO General and Working
           Capital Funds represent 2 of the 11 reporting entities in the DoD agency-wide
           financial statements required by Office of Management and Budget.

           Defense Finance and Accounting Service Columbus Reporting Division. The
           Financial Reporting Division, Defense Finance and Accounting Service (DFAS)
           Columbus is responsible for providing financial reporting support for eight of the
           ODOs through the preparation of monthly and quarterly reports. DFAS
           Columbus submits the financial information to DFAS Indianapolis for inclusion
           in the DoD agency-wide statements. DFAS Columbus is responsible for
           compiling and consolidating financial data for the following eight ODOs.

                    •    Defense Commissary Agency (DeCA)

                    •    Defense Contract Audit Agency (DCAA)

                    •    Defense Contract Management Agency (DCMA)

                    •    Defense Finance and Accounting Service (DFAS)

                    •    Defense Human Resources Activity (DHRA)

                    •    Defense Logistics Agency (DLA)

                    •    Defense Technical Information Center (DTIC)

                    •    National Defense Stockpile Transaction Fund (NDSTF)

           DFAS Columbus accountants use both United States Standard General
           Ledger (USSGL) -compliant and -noncompliant trial balances. The trial balances
           are generated from a variety of systems to compile and consolidate financial
           information for each of the eight ODOs. The Federal Financial Management
           Improvement Act of 1996 requires that Federal agencies’ accounting systems
           comply with the USSGL at the transaction level. Financial data must be
           consistent with the USSGL, and transactions must be recorded consistently with
           USSGL rules. To be USSGL-compliant, the general ledger account structure
           should conform to the four-digit proprietary and budgetary account structure
           established by the Department of Treasury. 1 To generate proprietary and


1
    Proprietary accounts record changes in the basic accounting equation: Assets = Liabilities + Equity.
    Budgetary accounts track and control budgetary resources and the status of those resources in the basic
    budgetary equation: budgetary resources = status of budgetary resources.



                                                       1

          budgetary accounts DFAS Columbus accountants create Excel workbooks to
          crosswalk 2 USSGL-noncompliant source trial balance data to the USSGL account
          structure.

          Financial Statements. Preparation of the financial statements is the joint
          responsibility of the DoD accounting activity preparing the financial statements
          and the DoD Component for which those financial reports are prepared. DoD
          Components and reporting entities are required to prepare a comparative Balance
          Sheet, Statement of Net Cost, Statement of Changes in Net Position, Statement of
          Budgetary Resources, and Statement of Custodial Activity, if applicable.
          Generally, DoD accounting systems do not comply with the USSGL. Therefore,
          preparers of financial statements and notes crosswalk their unique general ledger
          accounts to USSGL accounts.

          Audit Trails and Journal Voucher Preparation. DoD Regulation 7000.14-R,
          “DoD Financial Management Regulation,” volume 6A, chapter 2, “Financial
          Reports Roles and Responsibilities,” March 2002, requires that DFAS maintain a
          complete and documented audit trail to support the financial reports it prepares.
          DFAS, DFAS customers, and DoD Components are responsible for properly
          preparing and adequately supporting each journal voucher (JV). Each of these
          entities should take due care and diligence to fully comply with JV preparation
          responsibilities outlined in DoD Regulation 7000.14-R. The responsibilities
          pertain to: internal controls, the uses of JVs, supporting documentation, approval
          thresholds, and managerial oversight and review for JVs prepared, reviewed,
          approved, or processed by their activities.

          Quarterly Guidance for the Journal Voucher Metric. The Office of the Under
          Secretary of Defense (Comptroller)/Chief Financial Officer Quarterly Financial
          Reporting Guidance, Attachment 6C – “Journal Voucher Category Identification
          Codes and Metric Reporting,” (hereafter referred to as “Quarterly Guidance”)
          states that DoD should incorporate internal controls to ensure the proper and
          complete recording of JVs. The Quarterly Guidance established a quarterly
          metric and requires all DoD accounting centers to report the dollar value and
          quantity of adjustments made to source data. The guidance requires that all JVs
          made in preparation of the monthly, quarterly, and annual reports be reported on
          the quarterly JV metric. The metric considers only the accounting adjustments
          made at the accounting centers from the receipt of source trial balances through
          the preparation of the financial statements. The metric does not assess
          supportability of underlying data before trial balances are received at the
          accounting centers. When reporting unsupported adjustments, accounting centers
          must include explanations detailing the root cause(s) necessitating the
          adjustments, corrective actions, and an expected date that corrections will be
          completed.




2
    Crosswalk is a process used by DFAS Columbus to convert account data from USSGL-noncompliant
    source trial balances into the USSGL-compliant account structure.


                                                  2

Objectives 

     Our overall audit objective was to evaluate the processes used by DFAS
     Columbus for consolidating and compiling financial data for ODO General
     Funds. We did not determine the accuracy of the financial data used to prepare
     the Financial Statements. We also reviewed the management control program as
     it related to the overall objective. See Appendix A for discussion of the audit
     scope and methodology.


Review of Internal Controls
     We identified internal control weaknesses that we consider to be material. DoD
     Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
     January 4, 2006, states that a material weakness is a reportable condition that the
     Head of the DoD Component determines to be significant enough to be reported
     to the next higher level. Internal controls are the organization, policies, and
     procedures that help program and financial managers achieve results and
     safeguard the integrity of their programs. DFAS Columbus controls over the
     process for adjusting ODO financial data were not effective. The control
     weaknesses identified and our recommendations for improvements are discussed
     in the Finding section. Our recommendations, if implemented, will improve
     internal controls over the adjustment process. A copy of the report will be
     provided to senior officials responsible for managers’ internal controls at DFAS
     Columbus.




                                          3

           Controls Over Adjustments to Financial
           Data for Other Defense Organizations
           DFAS Columbus did not have adequate controls over the processes to
           adjust ODO financial data and did not always have audit trails necessary
           to verify the validity and accuracy of financial data adjustments because
           DFAS Columbus did not:

                   •	 document the process to develop USSGL account balances
                      from data that is not USSGL-compliant;

                   •	 document and approve all adjustments;

                   •	 prepare and document JVs in accordance with
                      DoD Regulation 7000.14-R and the Quarterly Guidance; and

                   •	 clearly define the scope and applicability of all JVs and verify
                      that all JVs were posted to the proper USSGL accounts.

           In addition, DFAS Columbus did not identify control objectives and
           activities in its Managers’ Internal Control Program to help it ensure that
           all adjustments to financial data were valid, accurate, and approved.

           As a result of ineffective controls, $8.6 billion (absolute value) in
           adjustments DFAS Columbus made to USSGL accounts for FY 2006 were
           not documented and approved or substantiated by an audit trail. Further,
           DFAS Columbus prepared and approved $535 million (absolute value) in
           JVs for FY 2006 that were not posted to USSGL accounts or could not be
           substantiated by an audit trail. These discrepancies caused a $7.6 billion
           (absolute value) difference between account balances derived from JVs
           and the actual ending balances used in preparing the ODO financial
           statements. Without effective controls to ensure that adjustments to
           financial data were valid, accurate, and approved, there was increased risk
           of material misstatement to the financial statements.


Financial Data Crosswalks
    DFAS Columbus receives and uses USSGL-noncompliant trial balances to
    compile ODO financial data. Therefore, DFAS Columbus must crosswalk the
    data into the USSGL account structure. An audit trail should exist to allow
    transactions to be traced from initiation through processing to final reports so that
    amounts can be efficiently recomputed, verified, and approved.

    Audit Trails. DFAS Columbus did not establish an audit trail or define how
    accountants were to crosswalk financial data. Audit trails permit reviewers and
    auditors to trace transactions through a system to ensure that transactions are
    properly accumulated and correctly classified, coded, and recorded in all affected



                                          4

           accounts. Because seven 3 of the nine source trial balances that DFAS Columbus
           used to compile ODO financial data were not USSGL compliant, DFAS
           Columbus made adjustments to crosswalk the financial data to make the data
           compatible with the USSGL proprietary and budgetary accounts. DFAS
           Columbus accountants use Excel workbooks (an Excel file consisting of multiple
           Excel spreadsheets) to perform the crosswalks to the USSGL accounts. However,
           the DFAS Columbus workbooks did not describe the relationships between the
           source trial balances, other sources of data, and the crosswalk adjustments used to
           build the initial USSGL account balances. DFAS Columbus accountants stated
           that they did not have, or were unaware of, any written standard operating
           procedures (SOPs) or guidance that identified how they were to complete
           crosswalk adjustments. DFAS Columbus accountants relied on pre-existing
           relationships built within the workbooks to crosswalk the financial data.

           For example, DFAS Columbus computed an initial USSGL account balance for
           the DHRA Fund Balance with Treasury (FBWT) of $298.2 million. The DHRA
           workbook contained 39 individual spreadsheets that were linked by complex
           formulas used to look up account information from several other spreadsheets.
           To determine how DFAS Columbus computed the FBWT USSGL account
           balance, we deconstructed formulas in the workbook and traced the amounts
           through multiple spreadsheets back to the source trial balances. Many of the
           formulas included amounts that did not originate from the source trial balances.
           DFAS Columbus did not provide the source of the adjustments or the reason for
           deviating from the source trial balance. As such, an audit trail did not exist to
           allow for efficient re-computation of the initial USSGL account balances.

           Further, accountants did not consistently crosswalk financial data from source
           trial balances to build USSGL account balances. For example, five of the
           nine initial trial balances were generated from the Defense Business Management
           System (DBMS), which produced USSGL-noncompliant trial balances using only
           noncompliant budgetary data. As a result, DFAS Columbus accountants had to
           crosswalk the financial data to build USSGL account balances. Table 1 shows the
           DFAS Columbus inconsistent use of General Ledger Account Codes (GLACs) to
           build USSGL account 1010 FBWT for the five ODOs.




3
    The Defense Working Capital Accounting System and Electronic Business Trial Balances, used by the
    NDSTF and the DFAS- General Fund respectively, are USSGL compliant; therefore, the financial data
    did not need to be crosswalked. DFAS Columbus used nine source trial balances because DeCA
    financial data were derived from trial balances generated by the Defense Business Management System
    and the Standard Financial System.



                                                     5

 Table 1. DBMS GLACs used to Build Beginning Balance for FBWT




                                                                                DCMA
                                                                   DHRA
 DBMS
 GLAC




                                                            DeCA




                                                                                       DTIC
                                                                          DLA
                     Account Description
  4010    Allotted Direct                                     *    X      X     X      X
  4110    Accrued Expenditures-Paid                           *     *      *     *     X
  4710    Undistributed Disbursements                         *     *     X      *      *
  4712    Undistributed Disbursements                        X     X       *    X      X
  4713    Undistributed Disbursement-Prior Year              X     X       *    X      X
  4720    Undistributed Collections                           *     *     X      *      *
  4721    Undistributed Collections-Debit                    X     X       *    X       *
  4723    Undistributed Collections-Credit-Prior Year        X     X       *    X      X
  4550    Operating Reimbursements Earned-Uncollected         *    X       *            *
  4560    Operating Reimbursements                            *     *      *      *    X
          Delivered Orders-Obligations
  4931    Transferred/Unpaid                                       X
          Other source Information                                 X            X      X
 “X” indicates that DFAS Columbus used the DBMS GLAC to build the ODO
 beginning account balance for FBWT
 “*” indicates that the ODO source trial balance(s) had a balance for the DBMS GLAC,
 but DFAS Columbus did not use the amount to build the beginning balance for FBWT



DFAS Columbus accountants did not crosswalk ODO financial data in a
consistent manner. DFAS Columbus did not establish SOPs to show the
accountants how to crosswalk financial data. For example, as shown in Table 1,
the accountants used GLAC 4710 to build DLA’s FBWT; however, the
accountants did not use GLAC 4710 to build DHRA’s FBWT although the
account contained a net total of $1.3 billion. Preparing and using SOPs that
describe the crosswalk of ODO financial data should ensure that accountants
consistently and accurately crosswalk the source trial balance financial data
DFAS Columbus receives to USSGL-compliant trial balances and should provide
the rationale for any crosswalk inconsistencies.

Journal Vouchers. DFAS Columbus crosswalked a total of $26.0 billion
(absolute value) from the six USSGL-noncompliant source trial balances and
other sources to build USSGL initial account balances. However, DFAS
Columbus did not prepare JVs to support crosswalk adjustments totaling
$25.9 billion (absolute value). Figure 1 shows DFAS Columbus adjustments for
the six (of eight) ODOs with noncompliant source trial balance data.




                                         6

                             Figure 1. FY 2006 First Quarter
                                 Crosswalk Adjustments
                                          ($ in Billions)

                            $10
                             $8
                             $6
                             $4
                             $2
                             $0
                                  DCAA DeCA DHRA DLA DCMA DTIC

                                   ODOs with Noncompliant
                                    Source Trial Balances


    DoD Regulation 7000.14-R states that when accounting systems are unable to
    provide data at the required level of detail for financial statement presentation, a
    correcting JV should be prepared to crosswalk data from installation-level
    accounts to the USSGL account structure. The Quarterly Guidance also
    recognizes that crosswalks of noncompliant source data are adjustments that
    require a JV and disclosure in the JV quarterly metric. However, DFAS
    Columbus did not document the crosswalk of financial data with an approved JV
    or report financial data crosswalks because it did not consider crosswalks to be
    adjustments. Further, DFAS Columbus did not believe that
    DoD Regulation 7000.14-R or the Quarterly Guidance required it to do so.

    A key test of an audit trail is the ability to trace transactions forward from source
    documentation or back from the resulting report to permit verification of the
    amount recorded or reported. All transactions must be traceable to individual
    source records. SOPs should indicate how USSGL-noncompliant accounts are
    used to create USSGL-compliant accounts, and JVs should be prepared and
    approved to conform to those procedures. Without documentation to support
    crosswalk adjustments and without approved JVs to substantiate the adjustments,
    we were unable to verify the validity of the amounts that DFAS Columbus used to
    build USSGL account balances.


Documenting and Approving Adjustments
    DFAS Columbus did not document and approve all adjustments to ODO financial
    data. DoD Regulation 7000.14-R requires that DFAS Columbus support
    adjustments with detailed written documentation that provides an audit trail to
    source transactions that require the adjustment. The Quarterly Guidance requires
    DFAS to approve and report any adjustments made to source data in any reporting
    system or through manual processes. DFAS Columbus made adjustments with an




                                            7

absolute value of $26.6 billion to ODO financial data posted to USSGL accounts.
Of the $26.6 billion, we could not substantiate that DFAS Columbus documented
and approved $8.6 billion (absolute value) in adjustments to USSGL accounts.

Overall, DFAS Columbus did not approve or maintain an audit trail to show that
it approved 32.1 percent of the total adjustments made to ODO financial data.
Table 2 shows the adjustments DFAS Columbus made for each of the eight
ODOs.

              Table 2. FY 2006 Adjustments to ODO Financial Data
                          (absolute $ value in millions)


                    Adjustments not                                       Percent not
    ODO              Substantiated            Total Adjustments          Substantiated


 DeCA                    $5,318.6*                 $5,418.7                   98.2*

 DCAA                       670.4                  10,166.9                    6.6

 DCMA                       782.6                   2,452.8                   31.9

 DFAS                         6.4                      24.5                   26.2

 DHRA                       517.3                   2,280.0                   22.7

 DLA                         62.0                   2,021.3                    3.1

 DTIC                       329.7                   2,732.8                   12.1

 NDSTF                      867.8                   1,523.3                   57.0
  Total                  $8,554.8                 $26,620.3                   32.1

 *Includes prior year adjustments applied to adjust the current year source trial balance
 data.


For example, DFAS Columbus made adjustments with an absolute value of
$2.3 billion to DHRA’s financial data. Of the $2.3 billion, we could not
substantiate that DFAS Columbus documented and approved $517.3 million in
adjustments posted in the workbooks with the corresponding JVs.

For DHRA, DFAS Columbus used eight separate trial balances and prepared
eight spreadsheets broken out by appropriation fiscal year to compile and adjust
financial data. DFAS Columbus then used a separate spreadsheet to combine the
individual spreadsheets and made additional adjustments to the financial data. In
some cases, DFAS Columbus made multiple adjustments to the same USSGL
account within the same appropriation fiscal year. Because the adjustment
amounts were added together, visibility of the individual adjustment amounts was
reduced.



                                         8

We worked with DFAS Columbus to perform an exhaustive reconciliation
between adjustments and JVs. Of the $517.3 million in adjustments that we could
not substantiate, $4.8 million (absolute value) was attributable to the FBWT 1010
account. In response to our analysis of matching adjustments with JVs, DFAS
Columbus prepared a supplemental spreadsheet to illustrate how a single JV
amount could be divided into several different amounts that supported, or in some
cases only partially supported, multiple adjustments within the FBWT account.
According to DFAS Columbus, the remaining amounts for the adjustments could
then be supported by other JVs or were partially unaccounted for in JVs. For
example, DFAS Columbus prepared JV number ADPCW06-ODO-0070 (JV 70)
to record prior-year undistributed disbursements resulting in a $3.8 million
increase to FBWT. The JV represented the net amount for all affected
appropriations. However, the JV and supporting documentation did not specify
which amounts were used to compile the net adjustment amount, or the sum found
on the JV. As a result, we could not determine which JV(s) supported the
adjustments DFAS Columbus posted to the DHRA workbook. Figure 2 depicts
the supplemental breakdown DFAS Columbus provided for JV 70 to explain how
the JV should be applied to the actual workbook adjustments.

                         Figure 2. Breakdown of DHRA
                     Journal Voucher #ADPCW06-ODO-0070
                                DHRA Adjustments
                                in Workbook Tabs
                                                             Adjustments
                                FY05                        remaining not
                                ($215,232.48)            supported by JV #70

         Breakout of JV #70          FY04
         Prepared by DFAS                               FY05 $611,915.91
                                     ($23,565.47)       FY04 ($12,903.23)
              Columbus
        FY05 ($827,148.39)                              FY03 ($771.40)
                                         FY03
        FY04 ($10,662.24)                               FY02 ($77,215.16)
                                         $98,087.48
        FY03 $98,858.88                                 FY01 ($79,729.60)
        FY02 $209,038.17            FY02
        FY01 $4,375,212.47          $131,823.01
                                                        Total of
                                                        Adjustments
                                FY01
                                                        supported by a
        Total of JV #70         $4,295,482.87
                                                        different JV or
        $3,845,298.89                                   unaccounted for in
                               Total Adjustments that   JVs $441,296.52
                               include JV #70
                               $4,286,595.41


As shown in Figure 2, the relationship between the JV amount of $3.8 million and
the actual workbook adjustments is not clear even after DFAS Columbus
provided a supplemental explanation. Amounts still remained unaccounted for
after we reconciled DHRA FBWT adjustments and JVs with DFAS Columbus.
DFAS Columbus stated these discrepancies occurred because:

   •   adjustments were only partially documented and approved in JVs,

   •   JVs were partially posted as adjustments,


                                    9

       •	 JVs did not list required accounts,

       •	 JVs listed incorrect accounts, and

       •	 adjustments and JVs were prepared in reverse (one a debit, one a credit).

    DFAS Columbus believed that only an absolute value of $1.2 million, instead of
    $4.8 million, in adjustments to DHRA’s FBWT were not documented and not
    approved in JVs. However, for us to consider the additional $3.6 million as
    adjustments approved by JVs, we would have to rely on DFAS Columbus
    accountants’ extensive explanations and supplemental spreadsheets that did not
    reconcile. The original workbooks and JV supporting documentation were
    not sufficiently detailed to provide an audit trail as required by DoD
    Regulation 7000.14-R. DFAS Columbus personnel agreed that they made
    adjustments that could not be substantiated based on their documentation and that
    lacked an audit trail. DFAS Columbus needs to develop and maintain an audit
    trail, which aligns adjustments and JVs, and implement procedures to ensure that
    all adjustments are documented and supported with an approved JV.

Requirements for Consistent and Compliant JVs
    DFAS Columbus did not ensure that accountants prepared JVs in accordance with
    DoD Regulation 7000.14-R and the Quarterly Guidance. JVs are necessary to
    control changes to financial data and to substantiate the accuracy and validity of
    the entries. DoD Regulation 7000.14-R requires specific operational internal
    controls to be in place to ensure that JVs are properly recorded. All JVs are
    specifically required to be:

           •	 categorized into 1 of 10 categories (see Appendix B for descriptions of
              JV categories), and

           •	 adequately documented to support the validity and amount of
              JV transactions.




                                        10 

As shown in Table 3, DFAS Columbus did not always assign the appropriate
category for JVs or document the validity and amount of JV transactions.

                Table 3. FY 2006 Journal Vouchers Prepared by
                               DFAS Columbus

                                                                No Source Indicated
           # of JVs     Non-Conforming       JVs not Properly
  ODO                                                               on Attached
           Reviewed          JVs               Categorized
                                                                  Documentation

  DeCA         21              21                   16                  21
  DCAA         49              49                   32                  26
  DCMA        199             194                  120                  136
  DFAS         30              30                   8                   27
  DHRA         62              62                   22                  47
   DLA         41              40                   22                  31
  DTIC         29              29                   9                   14
                                                                        16
 NDSTF         21              18                   8

 Totals       452             443                  237                  318


The Quarterly Guidance requires DFAS to determine whether a JV is supported
or unsupported and report its JV statistics to Office of the Under Secretary of
Defense (Comptroller)/Chief Financial Officer on a quarterly basis. The guidance
requires all DoD accounting centers to report the dollar value and quantity of
adjustments made to source data in the quarterly metric.

JV Categories. DFAS Columbus did not always assign the appropriate category
for JVs or provide sufficient documentation to validate the JV category.
DoD Regulation 7000.14-R describes JV categories that specify the purpose of
the JV entry and establish the documentation necessary to support the JV based
on the category.

Of the 452 JVs that we reviewed, 237 JVs either were assigned to an incorrect
category or did not contain sufficient documentation to substantiate that the JV
category was appropriate. For example, of the 120 DCMA JVs that were not
properly categorized, DFAS Columbus accountants categorized 22 JVs as
Category I, “Adjustment to Balance Reports Internally.” DoD
Regulation 7000.14-R and the Quarterly Guidance both state that Category I JVs
are created when reconciliation of data supporting two different reports cannot be
performed, thus requiring that the data be forced to balance. An example is an
adjustment to force balance budgetary and proprietary data from different reports.
However, DFAS Columbus did not attach documentation to substantiate that it




                                    11 

was balancing multiple reports. Therefore, the documentation did not support the
assigned JV category, and it was unclear why the accountants chose Category I
for the JVs.

DFAS Columbus personnel did not consistently apply the requirements of
DoD Regulation 7000.14-R. Some DFAS Columbus personnel stated that they
did not follow guidance; they relied on their past experience. Other DFAS
Columbus personnel stated that they used a “cheat sheet” that indicated the type
of JV, the appropriate category, and whether it was supported or unsupported.
However, the “cheat sheet” did not conform to JV requirements in the
DoD Regulation 7000.14-R. DFAS Columbus gave us four different documents
used as guides to prepare JVs. Without consistent guidance one cannot expect the
proper documentation to support JVs.

JV Support Documentation. DFAS Columbus did not support the validity
and amounts of JV transactions with the required documentation. DoD
Regulation 7000.14-R states that proper preparation and adequate support for JVs
are important to ensure JVs accurately record a financial event and a detailed
audit trail exists. DoD Regulation 7000.14-R requires that JV supporting
documentation be sufficient for the JV approving officials and auditors to clearly
understand the reason the accountant prepared the JV. DFAS Columbus did not
provide documentation required by DoD Regulation 7000.14-R to support the
validity and accuracy for 443 of the 452 JVs we reviewed. DFAS Columbus also
did not attribute the source of the documentation used as support for 318 of the
452 JVs.

For example, of the 194 non-conforming JVs for DCMA, DFAS Columbus
approved 61 JVs with an absolute value of $124.5 million to record DCMA’s
undistributed disbursements and collections. DFAS Columbus did not provide
adequate documentation to support the JV entries even though it classified them
as supported. To be considered supported, DoD Regulation 7000.14-R requires
documentation for these types of JVs to include identifiable amounts that are
in-transit from other sources. However, in most cases, the accountants provided
only print-outs from their Excel workbooks as supporting documents for the JV
entries. The printouts were not sufficient to support the JV entries because they
did not contain detailed information on how the JV amounts were determined.

DFAS Columbus did not measure and report adjustments to ODO financial data
in accordance with the Quarterly Guidance. The guidance requires that all JVs
made to prepare monthly, quarterly, and annual reports be accounted for in the
quarterly metric and shown as either supported or unsupported. DFAS Columbus
reported in its FY 2006 First Quarter metric that 95 percent of its approved JVs
were supported. However, JVs and attached documentation did not substantiate
the validity and the amounts of the JVs. For example, DFAS Columbus reported
that all of DTIC’s approved JVs for the quarter were supported. However, as
shown in Table 3, none of the 29 JVs we reviewed for DTIC contained the
supporting documentation required by DoD Regulation 7000.14-R. DFAS
Columbus should establish and implement SOPs to ensure that accountants
categorize and prepare JVs in accordance with the DoD guidance.




                                    12 

Verifying the Proper Posting of Approved JVs 

     DFAS Columbus did not clearly define the scope and applicability of prepared
     JVs and did not verify that it posted JVs to the proper USSGL posting accounts.
     In addition, DFAS Columbus did not establish effective managerial oversight or
     supervision of JV preparation as required by DoD Regulation 7000.14-R. The
     Regulation requires that JVs be sequentially numbered by reporting unit and
     reflected in a JV log to maintain the integrity of JV entries. The JV preparation
     and approval process should serve as a primary control to ensure that only
     appropriate and valid changes are made to source data, clearly annotating the
     scope and applicability of each prepared JV.

     JV Scope and Applicability. DFAS Columbus did not consistently post JVs to
     prepare the quarterly reports. Specifically, DFAS Columbus did not post monthly
     JVs in a consistent manner nor did they have guidance to indicate the
     applicability of the JVs to the reports. For example, in some cases DFAS
     Columbus accountants:

        •   prepared and posted monthly JVs to both monthly and quarterly reports, or

        •   prepared monthly JVs applicable to only the monthly reports, or

        •   prepared and posted a portion of monthly JVs to the quarterly reports.

     DFAS Columbus did not always document the scope and applicability of the JVs
     it prepared. For example, DFAS Columbus prepared monthly JVs for DCAA that
     contained entries to both proprietary and budgetary accounts. According to
     DFAS Columbus, the auditors should have considered only the budgetary entries
     authorized, approved, and applicable to the quarterly financial statements,
     although the JVs included entries to the proprietary accounts. The scope and
     applicability were not self-evident. Without documentation to specify the
     applicability of the JVs or reasons for inconsistent application of JVs, the validity
     of the postings could not be verified.

     JV Posting. DFAS Columbus approved JVs that were not posted as adjustments
     or were not posted correctly. DFAS Columbus approved JVs with an absolute
     value of $535 million that we could not trace to posting accounts in DFAS
     Columbus workbooks. We could not substantiate that the JVs were posted
     because DFAS Columbus did not prepare the JVs correctly, post the JVs
     correctly, or clearly define the scope and application of the JVs.

     DFAS Columbus JV approving officials did not conduct supervisory reviews
     necessary to ensure that all prepared and approved JVs were recorded in the
     accounts identified in the workbooks. For example, DFAS Columbus accountants
     made a manual adjustment of $78.4 million in DTIC’s workbook with a debit to
     USSGL account 3100 (Unexpended Appropriations) and a credit to
     5700 (Expended Appropriations). However, the JV for the adjustment showed a
     credit to account 3100 and debit to account 5700. The supervisor approved the
     JV, although the JV did not agree with the posted adjustment in the workbook.



                                          13 

    DoD Regulation 7000.14-R states that DFAS centers are to establish operational
    internal controls to ensure that they review JVs to verify the proper recording of
    entries to accounts. Because DFAS Columbus did not align the process of
    preparing JVs with the process of adjusting financial data, it should have
    developed compensating controls to ensure proper oversight of JV preparation
    and posting to USSGL accounts. DFAS Columbus should develop and establish
    procedures and controls to ensure that accountants clearly define the scope and
    applicability of JVs and that supervisors ensure that JVs are properly prepared
    and posted to the correct accounts.


Managers’ Internal Control Program
    DFAS Columbus did not identify the most effective control objectives and
    activities in its Managers’ Internal Control Program to help it ensure that all
    adjustments to financial data were valid, accurate, and approved. In fact, DFAS
    Columbus did not identify accurate, valid, and approved adjustments to financial
    source data as a control objective. Instead, DFAS Columbus identified the proper
    authorization and accounting for JVs as a control objective. The self-evaluation
    process required a quarterly review of:

           •	 100 percent of the JVs identified in the JV log to verify existence and
              signature, and

           •	 statistically selected JVs to assess whether JVs were prepared in
              accordance with DoD Regulation 7000.14-R.

    This approach was limited because it assumed that JVs constitute the universe of
    all adjustments to financial data. As a result, DFAS Columbus personnel did not
    determine whether approved JVs agreed with the total adjustments recorded in the
    USSGL accounts or whether manually created adjustments were documented and
    approved as JVs.

    DFAS Columbus developed a JV review checklist as a guide for the quarterly
    review of the JVs that included a determination of whether the JV was
    categorized correctly and whether the documentation supported the validity of the
    JV transaction. DFAS Columbus personnel acknowledged that they had only
    recently formalized the quarterly review process and were working to enhance it.

    Inadequate controls over DFAS Columbus’s adjustments process increased the
    likelihood that ODO financial data used to prepare financial statements may be
    materially misstated. DFAS Columbus should expand its control objective to
    include the actual adjustments to the financial data and evaluate the effectiveness
    of the controls over adjustments in the workbooks.




                                         14 

Reconciling Ending Balances and JV-Computed Balances
    As a result of differences between actual adjustments and approved JVs, there
    was a $7.6 billion difference (absolute value) between the actual account balances
    used in preparing the ODO financial statements and the expected ending balances
    based on the JVs. DFAS Columbus accountants did not perform reconciliations
    between JV-computed balances and the actual final reported balances.
    DoD Regulation 7000.14-R, volume 1, chapter 3 states that a key test of the
    adequacy of an audit trail is to trace transactions forward from the source or back
    from the results to permit verification of the amount recorded or reported. The
    prepared and approved JVs should document and identify differences between
    source financial amounts and the final report amounts. Because DFAS Columbus
    manually processed adjustments and JVs, accountants could make adjustments in
    the workbooks without an approved JV and prepare JVs without necessarily
    ensuring that JVs agreed with the posted adjustments.

    The magnitude of adjustments and the total value of approved JVs required to
    compile ODO financial data highlight the need for reconciliation. Had DFAS
    Columbus personnel performed a reconciliation they would have determined that
    problems existed in its control structure. Reconciliations are necessary to identify
    discrepancies between actual adjustments and JVs and to ensure the validity of
    adjustments to financial data. At a minimum, DFAS Columbus should reconcile
    all approved JVs to ending balances to ensure that JVs are prepared for all
    adjustments and that JVs are correctly posted.


Management Comments on the Finding and Audit Response
    Management comments and audit responses are discussed in greater detail in
    Appendix D.

    DFAS Columbus General Comments. The Deputy Director, DFAS Columbus
    did not agree with the DoD OIG interpretation of the DoD Regulation 7000.14-R.
    The Deputy Director also stated that DFAS Columbus strongly disagreed that it
    made $25.9 billion in adjustments. DFAS Columbus determined that the
    crosswalk of non USSGL-compliant accounts to USSGL accounts was a
    one-for-one mapping and stated that mapping does not constitute an adjustment.
    In addition, he stated that the process used to crosswalk the non USSGL accounts
    was documented in the DFAS Columbus workbooks.

    The Deputy Director further disagreed with the dollar value of the adjustments
    that were not fully substantiated. He stated that DFAS Columbus reviewed
    $6.5 billion of the $8.6 billion identified and determined $5.9 billion was
    substantiated. He stated that the DoD OIG disregarded $5.9 billion because the
    DoD OIG deemed it was not “sufficiently visible” in the workbooks. DFAS
    Columbus determined all adjustments to be valid and necessary.




                                         15 

    Audit Response. Deputy Director, DFAS Columbus’ strong disagreements give
    the appearance of an internal control environment where verbal assurances and
    experience are more important than written documentation. During the audit,
    DFAS Columbus personnel agreed that certain procedures and computations were
    not fully documented, and the auditors needed verbal explanations from DFAS
    Columbus to reach the same conclusions. We disagree that the DFAS Columbus
    crosswalk is a one-for-one mapping and question how DFAS Columbus could
    have made such a determination. The audit results and our review of the
    workbooks lead us to conclude that multiple non USSGL-compliant accounts and
    non trial balance data were used to build USSGL accounts. We were not
    provided verifiable documentation to support $5.9 billion that DFAS Columbus
    determined substantiated. We maintain that for adjustments to source trial
    balance data to be considered substantiated there must be a discernable audit trail
    that enables the matching of posted adjustments with documented and approved
    JVs. We do not believe this includes verbal reconciliation as to what should and
    should not have been posted to prepared JVs.

    We understand DFAS Columbus’ reluctance to provide extensive documentation
    and SOPs for a process that is scheduled to be replaced. However, in January
    2007, DFAS Columbus personnel stated that the current process would continue
    to serve as the audit trail and the backup to DDRS-B. Management’s strong
    contention that it already has adequate trails and documentation for its existing
    processes suggests that emphasis may not be placed on documenting the new
    processes when DDRS-B is fully implemented.


Recommendations, Management Comments, and Audit
  Response
    DFAS Columbus General Comments. The Deputy Director, DFAS Columbus
    nonconcurred with all recommendations (as detailed in the following responses),
    stating that the recommendations have been overcome by events resulting from
    continuous enhancements to the DFAS Columbus management control program
    and the implementation of DDRS-B.

    Audit Response. DFAS Columbus may well have implemented numerous
    enhancements after the first quarter of FY 2006. However, the DFAS response
    did not discuss how these enhancements affect the conditions the
    recommendations addressed. We did not review the capabilities of DDRS-B
    because it had not been fully implemented during the audit. We recognize that
    the report is being issued 9 months after we initially discussed the problems
    pertaining to the first quarter of FY 2006. However, our efforts to respond fairly
    to DFAS opposition to our conclusions have taken considerable time. After
    DDRS-B is fully implemented and the existing Excel workbooks have been
    replaced would be an opportune time for us to revisit the DFAS Columbus
    controls and its control environment. We hope that DFAS Columbus will focus
    the energy that was directed at minimizing the significance of the problems
    identified, to develop robust, documented and supportable internal controls and
    audit trails and a control environment that welcomes a critical look at controls
    over the compilation process.


                                        16 

1. We recommend that the Under Secretary of Defense (Comptroller)/Chief
Financial Officer revise and add clarifying language to the DoD Financial
Management Regulation 7000.14-R and DoD Quarterly Guidance,
Attachment 6C, to explicitly require the Defense Finance and Accounting
Service and other DoD Components to:

     a. Document the crosswalk of financial data from noncompliant
financial systems to the United States Standard General Ledger.

Office of the Under Secretary of Defense (Comptroller) Comments. The
Acting Deputy Chief Financial Officer nonconcurred. His office agreed that the
current DFAS Columbus process is complex and difficult to follow, and that
SOPs documenting the current crosswalk processes should have been in place;
however, the cost of preparing the documentation at this time outweighs the
benefits of such documentation. He stated that his staff reviewed the processes
and spreadsheets DFAS Columbus used to crosswalk financial data from
noncompliant systems into USSGL format. The Office of the Deputy Chief
Financial Officer is satisfied that the Excel spreadsheets are supported by the
underlying source trial balances and journal vouchers, and that it yields a valid
USSGL trial balance.

DFAS Columbus Comments. Although not required to comment, the Deputy
Director DFAS Columbus stated that DFAS Columbus uses the Excel workbooks
to document the crosswalk process from legacy noncompliant systems. He stated
that there were adequate controls over the processes to validate adjustments. He
acknowledged that the re-computation of the audit trail is very complex,
cumbersome, and complicated, but the existence of an audit trail is evident. With
the implementation of DDRS-B, the audit trail is deemed more efficient and
simplified. DDRS-B should be completed for the ODO General Funds reported
by DFAS Columbus in FY 2008.

Audit Response. We consider the Acting Deputy Chief Financial Officer
comments nonresponsive. We did not question the validity of the actual USSGL
balances yielded but the documentation defining the process to yield the USSGL
balances. Documentary evidence should exist to enable a reviewer or auditor to
trace from original transactions forward to related records and reports.
Accounting system documentation must be sufficient to demonstrate readily to
auditors the conceptual processes and procedures describing corrections for
deviations from Federal Accounting Requirements.

While the Office of the Deputy Chief Financial Officer and DFAS Columbus
maintain the audit trail exists in the workbooks, an audit trail extends beyond
linking cells across spreadsheets. It should be supplemented by, for example,
process flows and SOPs, as well as JVs that reconcile to those SOPs.
Documentation should enable an auditor to trace forward from source data and
not just vouch back from the final report to determine the different “hits” to the
source trial balance. The structure at the time of our audit did not allow the
auditor to ascertain which noncompliant accounts should be rolled forward (and
which ones should not) to build the USSGL nor did it convey the ability to
determine the completeness of that data. While tracing the transaction from the
source can be completed with due time, without SOPs it is unclear how to


                                     17 

facilitate replication of the transaction from the source to the final report.
Regardless of the vehicle, workbooks or an integrated system, documentation
should exist outside of the system that describes the process and explains the
rationale for accounts used and not used, and allows a reviewer to calculate
expected outputs based on authorized inputs.

While we recognize that a cost-benefit determination should be considered, DFAS
Columbus should have documented the crosswalk process concurrently with the
development and implementation of DDRS-B to ensure that actual outputs agree
with expected outputs. The Acting Deputy Chief Financial Officer agreed that
DFAS Columbus should have documented its process. We request that the
Deputy Chief Financial Officer provide additional comments and clarify his
position for all of DoD for documenting the crosswalk of noncompliant trial
balances to create U.S. Standard General Ledger accounts.

       b. Prepare journal vouchers for all crosswalk adjustments and
include those adjustments in the quarterly metric.

Office of the Under Secretary of Defense (Comptroller) Comments. The
Acting Deputy Chief Financial Officer nonconcurred, stating that
DoD Regulation 7000.14-R only requires a correcting journal voucher to
crosswalk data from installation-level accounts to U.S. Government Standard
General Ledger. He stated that his office reviewed the crosswalks and believes
that the crosswalk simply represents a remapping of balances which does not
constitute an adjustment and, therefore, does not require a journal voucher.

DFAS Columbus Comments. Although not required to comment, the Deputy
Director DFAS Columbus stated that a requirement for JVs would have no
additional reporting value and would merely be a duplication of effort. Further,
the duly authorized official determined that the DFAS Columbus legacy non
USSGL-compliant systems do provide sufficient detail for the financial
statements since a “one-for-one” mapping of non USSGL accounts to USSGL
accounts exists.

Audit Response. We consider the Acting Deputy Chief Financial Officer
comments nonresponsive. He stated that his office reviewed the workbooks;
however, it is not clear how the DCFO and DFAS Columbus made a
determination that the crosswalk simply represents remapping of balances or how
the duly authorized official concluded that a one-for-one mapping exists. For
example, DFAS Columbus used:

   •	 seven different noncompliant budgetary accounts and a non trial balance
      amount to build the DHRA Fund Balance with Treasury.

   •	 six different noncompliant budgetary accounts and a non trial balance
      amount to build the DTIC Fund Balance with Treasury.




                                    18 

   •	 six different noncompliant budgetary accounts and a non trial balance
      amount to build the DLA Unexpended Appropriations - Cumulative

   •	 nine different noncompliant budgetary accounts and a non trial balance
      amount to build the DCMA Allotments - Realized Resources

We consider, for example, use of seven noncompliant budgetary accounts and non
trial balance data to build the FBWT to be a crosswalk necessary for financial
statement presentation. In accordance with DoD 7000.14-R, DFAS Columbus
should have prepared a JV. The aforementioned crosswalks were not documented
but instead embedded in the workbooks. To further compound this, DFAS
Columbus used as many as eight different trial balances for one agency.

We do not agree with the Acting Deputy’s conclusion that this is “simply a
remapping of balances” or the implication that it is “one-for-one.” The
workbooks did not describe the crosswalk or explain why particular non
USSGL-compliant budgetary accounts were used to create the USSGL accounts
and why others were not. It is not clear how the Acting Deputy can state in his
response to Recommendation 1.a. that the crosswalk is complex and
difficult to follow, and then conclude that it is a simple remapping. The
DoD Regulation 7000.14-R and DoD Quarterly Guidance are vague when
addressing the crosswalk of financial data. However, in our opinion the
DoD Regulation 7000.14-R requires the information, and initial conversations
with the Office of the Deputy Chief Financial Officer indicated that they agreed
with this interpretation. Further, the Quarterly Guidance considers a one-for-one
crosswalk to be an adjustment. It states that, for example, an entry to create
budgetary accounts receivable by matching proprietary accounts receivable would
be considered a supported adjustment.

We made the recommendation based on published guidance and discussions with
personnel from the Office of the Deputy Chief Financial Officer concerning the
intent of that guidance. We request that the Deputy Chief Financial Officer
provide additional comments and specifically address the scenarios identified and
specifically state, for the record, his position on the preparation and reporting of
JVs for crosswalks.

In response to the Deputy Director, DFAS Columbus comments, it is not clear
how preparing a JV is merely a duplication of effort because an approved JV is a
primary control to ensure adjustments to source financial data are documented
and approved. DFAS Columbus was unable to provide approved procedures for
the methodology used to crosswalk the financial data in its workbooks or a
method used to verify the completeness of the data crosswalked.




                                     19 

2. We recommend that the Director, Defense Finance and Accounting
Service Columbus:

     a. Develop and implement standard operating procedures to:

           (1) Ensure that accountants crosswalk source trial balance data in
a consistent manner and that crosswalk adjustments are authorized and
approved.

DFAS Columbus Comments. The Deputy Director DFAS Columbus
nonconcurred, stating that written SOPs are not required because the crosswalk
process is already documented in the workbooks and is consistent with the
DDRS-B implementation. The use of summary accounts or detailed accounts did
not affect the reports or financial statements and inconsistent crosswalks do not
constitute different financial data.

Audit Response. We consider the Deputy Director DFAS Columbus comments
nonresponsive. We agree that a process is occurring within the workbooks;
however, this does not necessarily equate to documenting the process. Further,
DFAS Columbus did not address how it ensures that the crosswalk adjustments
are authorized and approved. The process is not documented in such a way to
enable auditors to efficiently re-compute initial USSGL balances, determine the
completeness of data rolled forward from source trial balances, and whether the
adjustments are authorized and approved. We believe that it is reasonable to
expect external documentation that describes the source trial balance accounts
used, and justification for accounts not used, or the documentation to determine
the methodology used to construct the USSGL accounts. If DDRS-B is the
ultimate system which will map the crosswalk from noncompliant systems to
USSGL, then documentation should have been prepared to support the mapping.
Without such documentation, it is not clear how expected outputs of the mapping
can be derived and then, validated for accuracy. We do not understand why
DFAS Columbus would object to defining the processes it uses to crosswalk
noncompliant financial data, considering it should have made such determinations
for the automated mapping in DDRS-Budgetary. We request the Deputy Director
DFAS Columbus reconsider his position and provide comments in response to the
final report.

          (2) Ensure that all adjustments are documented and supported
with an approved journal voucher.

DFAS Columbus Comments. The Deputy Director DFAS Columbus
nonconcurred, stating that an SOP does not ensure that all adjustments are
documented and supported with an approved JV. DFAS Columbus believes that
its management control program does provide a level of assurance that the
vouchers are documented, supported, and authorized. The Deputy Director
stated that with the full implementation of DDRS-B, all adjustments and prior
year balances will be documented in the system, which is consistent with its
current Excel workbooks.




                                   20 

Audit Response. We consider the Deputy Director DFAS Columbus comments
partially responsive. We agree that an SOP, in and of itself, does not ensure that
all adjustments are documented and supported with an approved JV. The
processes for adjusting financial data and creating and approving the JVs were not
integrated. For example, DFAS Columbus hard-keyed or linked to hard-keyed
amounts most of the adjustments in the DHRA workbook. DFAS Columbus did
not provide an explanation or reference in the workbooks to facilitate a match
between the posted adjustments and JV amounts. In addition, the posted
adjustment amounts did not necessarily correspond to debits and credits entered
in JVs. As such, we had to compare all JVs to all adjustments to determine if we
could find a “suitable” match. An SOP should compensate for the lack of
integration and ensure that adjustments are approved with JVs. Based on our
review, there was no requirement for the accountants to present the actual
workbook adjustments for approval.

We request that the Deputy Director DFAS Columbus provide comments on the
final report detailing how DFAS Columbus will ensure that posted adjustments,
whether manually or in DDRS-B, are documented and supported with an
approved JV and provide the estimated date of completion.

          (3) Ensure that journal vouchers are categorized (category type
and whether supported or unsupported) and prepared in accordance with
DoD Financial Management Regulation 7000.14-R and DoD Quarterly
Guidance, Attachment 6C, and clearly define the scope and applicability of
journal vouchers and verify that all prepared and approved journal
vouchers are recorded to the proper posting accounts.

DFAS Columbus Comments. The Deputy Director DFAS Columbus
nonconcurred, stating that an SOP would be a duplication of Quarterly Guidance,
attachment 6C and DoD Regulation 7000.14-R. He stated that DFAS Columbus
JV review procedures already document the requirements as well. Concerning
the scope and applicability of JVs, DFAS Columbus stated that the cited example
was unique to DCAA and that the DCAA JVs were clearly defined.

Audit Response. We consider the Deputy Director DFAS Columbus comments
nonresponsive. DoD guidance does not define the control procedures to ensure
that accountants prepare JVs in accordance with the guidance, or stipulate the
necessary documentation to support JVs prepared by each DFAS Center or DoD
Component. DFAS Columbus should develop and approve standard
implementing guidance based on the types of JVs it prepares; defining the
required documentation, JV descriptions, and documentation references,
necessary to comply with DoD JV requirements.

We do not agree that DCAA JVs were clearly defined. In lieu of written
documentation that did not exist, DFAS Columbus personnel initially told us that
all monthly JVs for distributed, advances, refunds receivable, negative accounts
payable, anticipated, and apportioned for subsequent periods should be matched
to adjustments made to prepare the quarterly financial statements. We tested this
assertion and determined that monthly JVs affected only the budgetary accounts.
DFAS Columbus personnel agreed, stating that we should consider only the JV



                                    21 

budgetary entries authorized, approved, and applicable to the quarterly financial
statements, even though the monthly JV included entries to the proprietary
accounts.

While DCAA JVs were used as a specific example within the report, the scope
and applicability of JVs for other ODOs was also not clearly defined. We
requested guidance on the application for all agencies which we never received.
For example, while working with DFAS Columbus to reconcile DHRA
adjustments and JVs, we were initially instructed to apply parts of JVs to parts of
adjustments. After applying the crosswalk, monthly, and AFS JVs to specific
adjustments based on DFAS Columbus instruction, we were later told that
monthly and crosswalk JVs are applied differently among the ODOs. DFAS
Columbus explained that some accountants prepare monthly JVs for their
monthly reports and then crosswalk JVs for the quarterly reports. However, in
other cases, an accountant might prepare a monthly JV for the monthly reports
and then use that same monthly JV for the quarterly reports instead of duplicating
JVs by preparing a crosswalk JV. We were ultimately told that monthly JVs
should be considered on a case-by-case basis. As such, we were dependent on
DFAS Columbus to tell us which monthly JVs should be considered in the
preparation of the quarterly financial statements.

We request that the Deputy Director, DFAS Columbus reconsider his position and
provide comments to the final report.

          (4) Reconcile the adjusted ending trial balances to journal
voucher-derived account balances to ensure adjustments are not made
without journal vouchers and journal vouchers are correctly posted.

DFAS Columbus Comments. The Deputy Director DFAS Columbus
nonconcurred, stating that a written SOP is not necessary because the
reconciliation process is already embedded and documented in the management
control program. He stated that certain JVs did not agree with the posted
adjustment in the workbook because of a formula error in the Excel program that
resulted in reverse signs to the face page of the manual JVs. However, DFAS
Columbus stated the actual entry was correct.

Audit Response. We consider DFAS Columbus comments nonresponsive. It is
not clear how the process is embedded in the management control program so as
to address the recommendation. When we briefed DFAS Columbus on our
preliminary results in January 2007 and discussed any procedures used to ensure
that JVs are being posted as adjustments in the workbooks, DFAS Columbus
personnel stated that there was no ultimate check but agreed that it may need to
perform some type of reconciliation. However, DFAS Columbus said that with
the implementation of DDRS-B there should be no manual upload and everything
will be automated.

We do not question that there were errors or that there were reasons for those
errors. However, if the approved JV was in error, we question the ability of
DFAS Columbus to control changes to the data and the value placed on the
prepared and signed JV which is, as stated in the DoD Regulation 7000.14-R, a
primary internal control. DFAS Columbus maintains that all adjustments are


                                    22 

valid and necessary but based on the “documented” control process, it is not clear
how it could expect an auditor to reach that same conclusion. The cited example
shows that the JVs do not control accountant-initiated adjustments because
supervisors did not ensure that the JV entry matched the posted workbook entry.

We request that the Deputy Director, DFAS Columbus provide additional
comments that specify exactly how DFAS Columbus is ensuring or will ensure
that JVs reconcile to adjustments made to source financial data.

b. Expand the scope of the managers’ internal control program and self-
evaluation process to ensure all adjustments to financial data are processed
and approved in accordance with DoD Financial Management
Regulation 7000.14-R and DoD Quarterly Guidance, Attachment 6C.

DFAS Columbus Comments. The Deputy Director, DFAS Columbus
nonconcurred, stating that all adjustments were valid and necessary. DFAS
Columbus implemented three journal voucher reviews that consist of using the JV
log for 100 percent verification of existence and a statistical selection of JVs for
compliance with DoD Regulation 7000.14-R. In addition, it implemented a
crosswalk review that consists of footing, cross-footing, verifying back to raw
source trial balances, journal vouchers, or supporting adjustments, and comparing
crosswalk amounts to the input data in DDRS.

Audit Response. We consider DFAS Columbus comments nonresponsive. Our
report noted the DFAS Columbus JV review. However, the review was
dependent on a prepared JV. Our review of the control objectives determined that
the review was limited to prepared journal vouchers instead of adjustments
actually posted in the workbooks. If all adjustments were valid and necessary, as
suggested, then this reinforces the need to implement the recommendation - the
JV process is not working as intended and did not control manual adjustments
made in the workbook because not all adjustments were approved or correctly
approved in a JV. In order to accomplish this, DFAS Columbus would need to
define a process to review posted adjustments not just prepared JVs. While
DFAS Columbus stated that it implemented a crosswalk review, it did not address
the recommendation. DFAS Columbus did not state whether the managers’
internal control program was updated to reflect that adjustments to financial data
are processed and approved in accordance with DoD 7000.14-R. In response to
the final report, we request that the Deputy Director DFAS Columbus describe
how the control objectives and self-evaluation process have been updated in the
managers’ internal control program to provide a level of assurance that the actual
posted adjustment is not only approved, but correctly approved in accordance
with DoD 7000.14-R.




                                     23 

Appendix A. Scope and Methodology 

   We performed this audit from January 2006 through March 2007 in accordance
   with generally accepted government auditing standards. Those standards require
   that we plan and perform the audit to obtain sufficient, appropriate evidence to
   provide a reasonable basis for our findings and conclusions based on our audit
   objectives. We believe that the evidence obtained provides a reasonable basis for
   our findings and conclusions.

   We reviewed and evaluated the DFAS Columbus processes for compiling and
   consolidating quarterly financial data for the following eight ODOs:

          •   Defense Commissary Agency

          •   Defense Contract Audit Agency

          •   Defense Contract Management Agency

          •   Defense Finance and Accounting Service

          •   Defense Human Resources Activity

          •   Defense Logistics Agency

          •   Defense Technical Information Center

          •   National Defense Stockpile Transaction Fund

   Our review included an evaluation of the controls over the process for compiling
   and consolidating financial data for the Operation and Maintenance
   Appropriation. However, because DTIC does not have Operation and
   Maintenance appropriation, we used its Research, Development, Test, and
   Evaluation Appropriation information for our review. We identified SOPs
   established by DFAS Columbus. We interviewed DFAS Columbus personnel to
   understand their procedures for preparing trial balances from the eight ODOs, as
   well as other supporting financial information from various sources, needed to
   prepare the quarterly financial statements. We identified the following guidance
   for adjustments to financial data: DoD Regulation 7000.14-R, volume 6A,
   chapter 2, “Financial Reports Roles and Responsibilities,” March 2002 and the
   Office of the Under Secretary of Defense (Comptroller)/Chief Financial Officer,
   FY 2006 First Quarter Guidance, “Attachment 6C-Journal Voucher Category
   Identification Codes and Metric Reporting.” In addition, we reviewed the first
   quarter FY 2006 ODO source trial balance data for seven of the ODOs with the
   exception of DLA for which we reviewed its second quarter data. We reviewed
   DLA’s second quarter financial data because DFAS Columbus used the CFO
   Load and Reconciliation System to compile DLA’s first quarter financial data and
   used an excel workbook to compile DLA’s second quarter financial data. We
   focused primarily on the validity of all adjustments made by DFAS Columbus
   personnel to ODO source trial balances.



                                      24 

    Use of Computer-Processed Data. We used ODO trial balances generated by
    the following accounting systems:

           •   Defense Business Management System,

           •   Defense Working Capital Accounting System,

           •   Electronic Business System, and

           •   Standard Army Financial Information System.

    In addition, we used ODO financial information contained in the Defense
    Departmental Reporting System.

    We used the trial balances to determine whether DFAS Columbus adjustments to
    the financial data were supported by journal vouchers. We determined
    differences between financial data submitted in trial balance submissions and
    amounts reported in Defense Departmental Reporting System. The accuracy or
    inaccuracy of the trial balances did not impact the results of review. Therefore,
    we did not rely on computer-processed data or the validity or accuracy of the
    computer processed data in the performance of this audit.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the Financial Management high-risk area.


Prior Coverage
    No prior coverage has been conducted on the subject during the last 5 years.




                                        25 

Appendix B. Journal Voucher Categories

                                                                                    Typical Supporting
Category               Name                              Purpose                     Documentation
                                             To reverse monthly or yearly         Documentation on the
           Reversing Entries for Prior                                            original accrual entry and an
   A                                         accruals or correcting entries
           Reporting Period                                                       explicit statement that the
                                             made for reporting purposes
                                                                                  entry is a reversing entry
                                             To record source-entry               Data from an identified
                                             information provided by data         independent source such as
   B       Data Call Entry
                                             calls where the data are not         the DoD Actuary or
                                             recorded on a detailed               Department of Labor
                                             transaction basis
                                             To reconcile internal financial      Summary narrative and
           Balancing Entries for
   C                                         data with data from buyers or        detailed worksheets
           Eliminations
                                             sellers                              supporting the calculated
                                                                                  adjustment
                                             To account for undistributed         Summarized transmittal
           Recognition of Undistributed
   D                                         disbursements and collections        amounts from other sources
           Collections & Disbursements
                                             not recognized in the accounting     such as a DFAS Center or
                                             records                              Federal agency
                                             To match field accounting site       Source data and related
           Reconciliation of Trial Balance
   E                                         trial balances with DoD              analysis to determine whether
           and Budget Execution Reports
                                             Component budget execution           field site or Component data
                                             reports                              are correct

                                             To adjust inventory values for       Clear explanation of criteria
   F       Supply Management Inventory                                            and methods used to calculate
                                             supply management activities
                                                                                  the adjustment

                                             To compensate for accounting         Narrative to explain why the
                                             system inabilities to provide data   reclassification is necessary
   G       Reclassification of Accounts                                           and why the system cannot
                                             at the level needed for financial
                                             statement preparation                provide the required level of
                                                                                  detail
                                                                                  Detailed listing of identified
                                             To correct errors identified         errors and a narrative
           Identified Errors and
   H                                         through analysis or other quality    providing the rationale,
           Reasonableness Checks
                                             control procedures                   analysis, and data sources
                                                                                  supporting the adjustment
                                                                                  Documentation of
           Adjustment to Balance Reports     To reconcile data between
   I                                                                              reconciliation efforts made
           Internally                        internal reports
                                                                                  before determining the reports
                                                                                  cannot be reconciled

                                             To reverse month-end or year-        Narrative explaining the basis
   J       Other Accruals                                                         for the accrual and any
                                             end accruals
                                                                                  subsequent reversal




                                                  26 

Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Commissary Agency
Director, Defense Contract Audit Agency
Director, Defense Contract Management Agency
Director, Defense Finance and Accounting Service
Director, Defense Finance and Accounting Service Columbus Center
Director, Defense Human Resources Activity
Director, Defense Logistics Agency
Director, Defense Technical Information Center

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform



                                          27 

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member (cont’d)
House Subcommittee on Government Management, Organization, and Procurement,
      Committee on Oversight and Government Reform

House Subcommittee on National Security and Foreign Affairs, 

      Committee on Oversight and Government Reform





                                      28 

Appendix D. 	Management Comments on the
             Finding and Audit Responses
   DFAS Columbus Comments on Table 1, “DBMS GLACs used to Build
   Beginning Balances for FBWT.”

      •	 The formula in the drill down of the DTIC excel worksheet traced back to
         GLAC 4712 not 4110.

      •	 Did not locate the use of GLAC 4550 to build the DHRA FBWT
         beginning balances.

      •	 DeCA does not use GLAC 4010 because it does not have an appropriation
         because they are funded by 5 percent of DeCA Resale.

      •	 Although DLA used summary GLAC 4720 instead of the detailed
         accounts used by other accountants, the impact to the financial data is the
         same.

   Audit Response. Both GLAC 4110 and 4712 were used to calculate the DTIC
   FBWT USSGL balance. For the FY 2006 appropriation, the 4110 account was
   used to compute USSGL 4902 Delivered Orders Paid. DFAS Columbus used the
   4902 to compute part of the FBWT for the FY 2006 appropriation and used 4712
   in the computation of the FBWT for the FY 2005 appropriation.

   DHRA consisted of eight different trial balances and eight different spreadsheets
   that covered limits, 7301 and 7302. GLAC 4550 was used to compile FBWT for
   limit 7302 only.

   The report recognizes that DFAS Columbus did not use GLAC 4010 to create
   DeCA FBWT. The intent was not that GLAC 4010 should have been used but
   that a balance exists in the account. While DFAS Columbus may not use amounts
   reported in GLAC 4010 to compile FBWT, DeCA reported amounts in
   GLAC 4010 on the source trial balance. DFAS Columbus comments further
   magnify the need to describe the crosswalk to establish completeness. SOPs and
   other documentation would facilitate an understanding of what should be included
   and excluded and why. We recognize that using summary GLACs instead of
   detailed GLACs for DLA does not invalidate the financial data. However, we
   believe that documentation should exist to describe and justify the methodology
   used to crosswalk the data.

   DFAS Columbus Comments on Table 2, “FY 2006 Adjustments to ODO
   Financial Data.” DFAS Columbus stated that, based on limited information
   provided by the auditors, only $6.5 billion could be reviewed as the remaining
   $2.1 billion detailed analysis was not provided. DFAS Columbus stated that of
   the $6.5 billion reviewed, it substantiated $5.9 billion in the review process but
   was disregarded by the auditors because it was not “sufficiently visible” in the




                                        29 

workbooks. DFAS Columbus contended that audit trails exist for DeCA as the
manual Excel workbooks contained summarized and categorized tabs that are
used for the DeCA financial statement audit. The tabs provided a simplified and
clearly-defined audit trail but DoD OIG auditors did not use them as instructed.

Audit Response. The DoD OIG has provided all analysis requested by DFAS
Columbus. We worked with DFAS Columbus to reconcile adjustments and JVs
for two ODOs. DFAS Columbus has minimized the importance of the lack of an
audit trail by stating that it was disregarded because it was not sufficiently visible.
DFAS Columbus management apparently is not aware of the exhaustive efforts
that its own staff had to undertake to explain why we could not reconcile
adjustments and JVs. DFAS Columbus owns the process; it should not have
taken as long as it did. DFAS Columbus believed that if a JV was prepared that
should have included a workbook entry and didn’t, that we should have
considered the workbook entry approved by a JV. DFAS Columbus agreed that
there were JVs and adjustments that we could not match without verbal
explanation. To categorically state that all entries are valid and necessary is not
sufficient support to substantiate the validity and necessity of those adjustments.

We are aware of the spreadsheet that DFAS Columbus prepares specifically for
the DeCA financial statement audit. We noted errors in the spreadsheet. For
example, posted amounts were supposed to tie to individual amounts listed in the
comments inserted in the cell. However, amounts did not reconcile. In addition,
posted USSGL amounts did not agree with referenced GLAC amounts. However,
the spreadsheet was prepared after the accountant compiled the data to import into
the financial statements. We used the actual worksheets that the accountant used
to compile the financial statements for our analysis, not the spreadsheet prepared
for the financial statement auditors.

DFAS Columbus Comments on JV Categories. DFAS Columbus stated that
the categorization of JVs continues to be based on interpretation of the guidance.
DFAS Columbus suggested that categorization could be based on the
accountant’s interpretation of DoD Regulation 7000.14-R and the nature of the
JV, that a JV could be classified in more than one JV Category.

Audit Response. We did not just determine those JVs that were categorized
incorrectly, but those in which a determination could not be made because
sufficient documentation was not included to support the category. The Quarterly
Guidance and DoD Regulation 7000.14-R discuss the types of documentation that
should be included for each category to be considered supported. If there is an
expectation based on the category that, for example, DFAS Columbus used
multiple reports to reconcile an amount, we would expect to see multiple reports
attached or specifically referenced in the JV.

DFAS Columbus Comments on JV Supporting Documentation. DFAS
Columbus stated that additional supporting documentation did exist for various
JVs which it believed would have supported, for example, its undistributed
calculation and had the documentation been requested, DFAS Columbus could
have provided it.




                                      30 

Audit Response. We are not questioning whether JVs could ultimately be
supported. However, when reviewing the JVs, we only considered the attached
documentation, as well as written explanations in determining whether the JV
conformed to DoD guidance. DoD Regulation 7000.14-R clearly states that
proper documentation is necessary to support journal voucher entries and should
be attached to the journal voucher. If the supporting documentation is too
voluminous, then specific and detailed information summarizing the content, and
identifying the location of the supporting documentation should be attached to the
voucher.




                                    31 

Under Secretary of Defense (Comptroller)/Chief
Financial Officer Comments


                                   OFFICE OF THE UNDER SECRETARY OF DEFENSE
                                                             100      DEFENSE PENTAGON
                                                           W A S H I N G T O N , D C 20301-1100




    COMPTROLLER




         M E M O R A N D U M FOR PROGRAM DIRECTOR, DEFENSE FINANCIAL AUDITING
                                   SERVICE, OFFICE OF INSPECTOR GENERAL,
                                   DEPARTMENT OF DEFENSE

         S U B J E C T : R e s p o n s e t o Draft R e p o r t : " D e f e n s e Finance a n d A c c o u n t i n g Service
         C o l u m b u s P r o c e s s e s for C o n s o l i d a t i n g a n d C o m p i l i n g O t h e r D e f e n s e O r g a n i z a t i o n s
         Financial D a t a . " {Project N o . D 2 0 0 6 - D 0 0 0 F A - 0 0 9 8 . 0 0 0 )

               This m e m o r a n d u m is in response to recommendations to the U n d e r Secretary of
         Defense ( C o m p t r o l l e r ) / C h i e f Financial Officer in the subject M a y 30, 2 0 0 7 , draft report
         provided t o this office for r e v i e w a n d c o m m e n t .

         R e c o m m e n d a t i o n I. W e r e c o m m e n d that the U n d e r Secretary o f D e f e n s e
         (Comptroller)/Chief Financial Officer revise a n d add clarifying l a n g u a g e t o the D o D
         Financial M a n a g e m e n t R e g u l a t i o n 7 0 0 0 . 1 4 - R a n d D o D Quarterly G u i d a n c e , A t t a c h m e n t
         6 C , t o explicitly require the D e f e n s e F i n a n c e a n d A c c o u n t i n g S e r v i c e a n d other D o D
         C o m p o n e n t s to:

               a.       D o c u m e n t t h e crosswalk o f Financial d a t a from n o n c o m p l i a n t financial
         systems t o the U n i t e d States S t a n d a r d G e n e r a l L e d g e r ( U S S G L ) .

                b.    Prepare j o u r n a l v o u c h e r s for all c r o s s w a l k adjustments a n d include those
         adjustments in t h e quarterly metric.

         OUSD(C) Comments:

                    l a . N o n c o n c u r M y staff has r e v i e w e d the processes a n d s p r e a d s h e e t s C o l u m b u s
        uses to c r o s s w a l k financial data from n o n c o m p l i a n t s y s t e m s into U S S G L format. W e are
        satisfied that t h e Excel s p r e a d s h e e t s a r e s u p p o r t e d b y the underlying source trial balances
        and j o u r n a l v o u c h e r s , and that it yields a valid U S S G L trial b a l a n c e . W h i l e we agree that
        the current process is c o m p l e x and difficult to follow, and that s t a n d a r d operating
        procedures d o c u m e n t i n g the current c r o s s w a l k processes s h o u l d h a v e been in place, the
        cost of p r e p a r i n g the d o c u m e n t a t i o n at this t i m e o u t w e i g h s the benefit of such
        d o c u m e n t a t i o n . C o l u m b u s is in the process of completing i m p l e m e n t a t i o n of Defense
        D e p a r t m e n t a l Reporting S y s t e m - B u d g e t a r y ( D D R S - B ) for all c o m p o n e n t s serviced by
        the C o l u m b u s Center. It is anticipated that t h e D D R S - B s t a n d - u p will b e c o m p l e t e d by
        O c t o b e r 1, 2007, for all c u s t o m e r s except t h e Defense C o m m i s s a r y A g e n c y ( D e C A ) .




                                                                              33 

N e g o t i a t i o n s with DeCA auditors are o n g o i n g , and it is anticipated that D e C A will be
s t o o d - u p d u r i n g fiscal year ( F Y ) 2 0 0 8 . W e feel C o l u m b u s ' r e s o u r c e s w o u l d b e m u c h
better d e v o t e d to c o m p l e t i n g the D D R S - B i m p l e m e n t a t i o n , w h i c h will render the m a n u a l
Excel crosswalks obsolete.

              l b . N o n c o n c u r . A c c o r d i n g to D o D F M R V o l u m e 6 A , C h a p t e r 2, Section 0 2 0 2 0 8 ,
D . 1 . e . , " W h e n the d u l y authorized official has determined that the a c c o u n t i n g s y s t e m s are
u n a b l e to provide data at the r e q u i r e d level of detail for financial statement and footnote
presentation, a correcting j o u r n a l v o u c h e r shall be prepared to c r o s s w a l k data from
installation level a c c o u n t s to t h e U . S . G o v e r n m e n t S t a n d a r d G e n e r a l L e d g e r . " M y staff
has r e v i e w e d the crosswalk s p r e a d s h e e t s used b y C o l u m b u s to r e m a p the n o n c o m p l i a n t
b a l a n c e s t o U S S G L accounts. W e are satisfied that a sufficient level of detail exists to
support the crosswalk of data, a n d that t h e c r o s s w a l k s i m p l y r e p r e s e n t s r e m a p p i n g of
b a l a n c e s . M a p p i n g d a t a does not constitute an adjustment; therefore, a j o u r n a l v o u c h e r is
not r e q u i r e d to b e prepared or r e p o r t e d in the quarterly metric. W e also c o n c u r with t h e
p r o c e s s u s e d by C o l u m b u s of carrying-forward prior year j o u r n a l v o u c h e r s and l e d g e r s ,
a n d d o not c o n s i d e r that n e w j o u r n a l v o u c h e r s should b e p r e p a r e d for this prior-year data,
or that the balances should be r e p o r t e d in the q u a r t e r l y metric.

            W e appreciate the o p p o r t u n i t y t o r e s p o n d to your draft audit report and look
f o r w a r d t o r e s o l v i n g the cited i s s u e s . M y point of contact is M s . K a t h y Sherrill. S h e c a n
be c o n t a c t e d by telephone at 7 0 3 - 6 1 4 - 7 5 2 4 or e-mail at K a t h y . S h e r r i l l @ o s d . m i l .




                                                                     RobertMcNamaraActing D e p u t y C h i e f Financial Officer




DFAS




                                                              34 

Defense Finance and Accounting Service
Columbus Comments


                           D E F E N S E FINANCE A N D ACCOUNTING SERVICE
                                               P O BOX 18231/ 

                                          COLUMBUS. OHIO 43216-2317 





                                                                                  AUG    6 2007
     DFAS-JBI/CO



     M E M O R A N D U M FOR DIRECTOR, DEPARTMENT OF DEFENSE INSPECTOR GENERAL

     SUBJECT;      Management Comments on DoDIG Draft Audit Report, "Defense Finance 

                   Accounting Service Columbus Processes for Consolidating and Compiling 

                   Other Defense Organizations Financial Data," Project Number 

                   D2006-D000FA-0098.000, dated May 30, 2007 




            In accordance with the subject audit, DFAS Columbus management comments are
     provided to the draft audit report. Recommendations 1 a and 1 b belong to the Office of
     Undersecretary of Defense (Comptroller) of which DFAS Columbus is also commenting.

            DFAS Columbus strongly disagrees with the $25.9 billion (ABS) in adjustments related to
     recommendations l a and l b and the $8.6 billion (ABS) in adjustments related to recommendation
     2a2. DFAS Columbus contends that mapping does not constitute an adjustment. DFAS
     Columbus does not agree with the DoDIG's interpretation of the Financial Management
     Regulation, which is the basis for these recommendations.

             The management comments are based on the timeframe of the audit. As such, DFAS
     Columbus non-concurs with all recommendations The recommendations presented in the draft
     audit report have been overcome by events resulting from continuous enhancements to the DFAS
     Columbus management control program and the implementation of a new system.

          My point of contact for additional information is Ms. Sharon Esmont DFAS-JBI/CO at
     DSN S69-0331 or 614-693-0331




                                                      Carlton E. Francis
                                                      Deputy Director, DFAS Columbus

     Attachment:
     As stated




                                                 www.d1as.mil
                                       Your   Financial Partner @ Work




                                                     35
                Management Comments on DoDIG Draft Audit Report,
    Defense Finance and Accounting Service Columbus Processes for Consolidating and
                Compiling Other Defense Organizations Financial Data,"
               Project Number D-2006-D000FA-0098, dated May 30, 2007



Recommendation 1: We recommend that the Under Secretary of Defense (Comptroller)/Chief
Financial Officer revise and add clarifying language to the DoD Financial Management
Regulation 7000.14-R and DoD Quarterly Guidance, Attachment 6c, to explicitly require the
Defense Finance and Accounting Service and other DoD Components to:

a.	 Document the crosswalk of financial data from noncompliant financial systems to the United
    States Standard General Ledger (USSGL).

M a n a g e m e n t C o m m e n t s : Non-concur. The documentation already exists in our crosswalk
workbooks to crosswalk data from non USSGL accounts to USSGL accounts and is documented
in eight separate workbooks. The Excel workbooks are used to document the crosswalk process
from legacy non compliant systems to USSGL. The DoDIG conducted the audit based on the
manual Excel workbooks used to create the December 2005 quarterly statements. The audit
report stated that D F A S Columbus lacked efficient audit trails. An audit trail exists however,
due to the complexity of the process to crosswalk non USSGL accounts, and limited on-site
fieldwork; DoDIG may not have established a full understanding of the process. Complexity of
the Excel workbooks required DFAS Columbus accountants to explain and walk several of the
auditors through the process of tracing formulas to separate worksheets. DFAS Columbus
contends there were adequate controls over the processes to validate adjustments made to
financial statements and the adjustments could be traced back to the source documents to create
an audit trail. DFAS Columbus acknowledges the re-compilation of the audit trail is very
complex, cumbersome, and complicated, but the existence of an audit trail is evident,

Furthermore, during the Entrance Briefing, DFAS Columbus explained to the auditors that this
manual process was being automated at DFAS Columbus with the full implementation of
Defense Departmental Reporting System- Budgetary (DDRS-B). Full implementation of DDRS­
B consists of the following phases:

        •	   Phase I - Implementation to DDRS-B monthly process (FY06)
        •	   Phase II - Exporting from DDRS-B to AFS; eliminating manual workbooks (FY07)

The audit trail is deemed to be more efficient and simplified with the full implementation of
DDRS-B where the USSGL account balances can be drilled down to the detailed level including
JVs. The Other Defense Organizations (ODO) Working Capital Funds (WCFs) reported by
DFAS Columbus have fully implemented a direct export from DDRS-B to DDRS-AFS, which
eliminated the Excel workbooks. The ODO General Funds (GFs) reported by DFAS Columbus
are implementing DDRS-B Phase II and should be completed in FY 2007 as previously planned.
The Defense Commissary Agency (DeCA) WCF and GF are in the process of coordinating a full
DDRS-B implementation plan for FY 2008.




                                                 36 

Estimated Completed Date: This recommendation is considered closed


b.	 Prepare journal vouchers for all crosswalk adjustments and include those adjustments in the
    quarterly metric.

M a n a g e m e n t Comments: Non-concur. DFAS Columbus contends that mapping data does
not constitute an adjustment, therefore, a JV is neither required nor reported in the quarterly JV
metric. Furthermore, we contend that a requirement for such JVs would have no additional
reporting value and would merely be a duplication of effort

The report stated DFAS Columbus did not prepare JVs to support crosswalk adjustments totaling
$25.9 billion (ABS) Currently, DFAS Columbus does not prepare formal JVs to document the
crosswalk of non USSGL accounts to USSGL accounts.

DFAS Columbus disagrees with the DoDIG's interpretation of the D o D FMR. According to
DoD FMR Volume 6A, Chapter 2, Section 020208, D. I.e., "When the duly authorized official
has determined that the accounting systems are unable to provide data at the required level of
detail for financial statement and footnote presentation, a correcting journal voucher shall be
prepared to crosswalk data from installation level accounts to the U.S. Government Standard
General Ledger. The supporting documentation shall include a narrative that explains the reason
the reclassification is necessary and the reason the systems are unable to provide the data at the
required level of d e t a i l " The DFAS Columbus duly authorized official has determined that the
DFAS Columbus Legacy non USSGL compliant systems do provide sufficient detail for the
financial statements since a one for one mapping of non USSGL accounts to U S S G L accounts
exists.

Estimated Completion Date: This recommendation is considered closed




R e c o m m e n d a t i o n 2: We recommend that the Director, Defense Finance and Accounting
Service Columbus:

a.	 Develop and implement standard operation procedures to:

    1) Ensure that accountants crosswalk source trial balance data in a consistent manner and
       that crosswalk adjustments are authorized and approved

M a n a g e m e n t C o m m e n t s : Non-concur. DFAS Columbus contends that written SOPs are not
required because the process is already documented in the crosswalk workbooks and is
consistent with the DDRS-B implementation.

The report states that DFAS Columbus accountants did not crosswalk non USSGL accounts
consistently. The report indicated one accountant used a summary account to derive the account



                                                  2




                                                 37 

balance and another accountant used a detailed account to derive the account balance. The
example cited was of D B M S GLAC 4710 vs. 4712 and 4713 in the computation of FBWT
(USSGL 1010). GLAC 4710 is the summary GLAC in D B M S for 4712 and 4713 GLAC 4710
contains all disbursements, current year (GLAC 4712) and prior year (GLAC 4713). There was
no effect or impact on the reports or financial statements Furthermore, inconsistent crosswalks
do not constitute different financial data.

In addition, DFAS Columbus found the following errors in Table 1, " D B M S G L A C s used to
build beginning balance for FBWT", page 6:

           1.	 The audit report cited Defense Technical Information Center (DTIC) used GLAC
               4110 to build the FBWT beginning balance. However, the formula in the drill
               down of the Excel worksheet was traced back to GLAC 4712 from the source trial
               balance.
           2.	 The audit report cited Defense Human Resources Agency (DHRA) used GLAC
               4550 to build the FBWT beginning balance. However, Columbus was unable to
               locate a case on the Excel spreadsheets where DHRA used GLAC 4550 for
               FBWT
           3.	 D e C A (limit 8164) does not have an Appropriation Received as they are funded
               by 5 percent of DeCA Resale Therefore, DeCA would not use GLAC 4010 to
               build the FBWT balance as they do not receive funding via an appropriation
           4	 Defense Logistics Agency (DLA) used the summary GLAC 4720 for collections
               whereas the other accountants used the detailed accounts to derive the account
               balance The method used to derive the account balance was different, but impact
               to the financial data is the same

Estimated Completion Date: This recommendation is considered closed.




   2) Ensure that all adjustments are documented and supported with an approved journal
      voucher.

Management Comments; Non-concur. DFAS Columbus contends that an SOP does not ensure
that all adjustments are documented and supported with an approved JV Furthermore our
management control program does provide a level of assurance that our vouchers are
documented, supported and authorized.

As illustrated in Table 2, "FY 2006 Adjustments to O D O Financial Data (absolute $ value in
millions)", page 8, the report stated that DFAS Columbus did not document and approve all
adjustments. It was slated that $8.6 billion (ABS) in adjustments to USSGLs were
unsubstantiated. Based on the limited information provided by the auditors, only $6.5 billion
could be reviewed ( D H R A DCAA, D e C A and DFAS) as the remaining $2. i billion detailed
analysis was not provided as repeatedly discussed with the DoDIG. Of the $6.5 billion reviewed,
$5.9 billion was actually substantiated in the review process but disregarded by the auditors
because it w a s not "sufficiently visible" in the workbooks.




                                                3




                                               38 

For example, DeCA represents $5.3 billion of the total finding. DFAS Columbus contends that
audit trails exist as the manual Excel workbooks contain summarized and categorized tabs that
are used for the financial statement audit. The tabs provide a simplified and clearly defined audit
trail but were not used by the DoDIG auditors as instructed. Of the $5.3 billion, $4.1 billion can
be traced to prior year trial balances. The remaining $1.2 billion can be traced to JVs and current
trial balances. The D o D I G only requested December 2005 trial balances and JVs, but several
adjustments in the Excel workbooks cited as unsubstantiated were a result of prior year ledgers
or JVs.

All of the entries totaling $6.5 billion were determined to be valid and necessary, and ultimately
substantiated, for the 1st Quarter, FY 2006 financial statements prepared for December 2005.
These entries did contain an audit trail and were necessary based on the limitations of the non
USSGL compliant systems being used. Again with the full implementation of DDRS-B, all
adjustments and prior year balances will be documented in the system which is consistent with
our current excel workbooks.

Estimated Completion Date: This recommendation is considered closed


    3) Ensure that journal vouchers are categorized (category type and whether supported or
       unsupported) and prepared in accordance with D o D Quarterly Guidance, Attachment 6C,
       and clearly define the scope and applicability of journal vouchers and verify that all
       prepared and approved journal vouchers are recorded to the proper posting accounts.

Management Comments: Non-concur. DFAS Columbus contends that an SOP would be a
duplication of Quarterly Guidance, attachment 6C and the FMR. In addition, DFAS Columbus
JV review procedures already document the requirements as well.

The report stated that DFAS Columbus did not always assign the appropriate category for JVs
DFAS Columbus was not able to review the specific detail supporting the findings concerning
the categorization of JVs and cannot address all 452 JVs cited in the report Table 3, "FY 2006
Journal Vouchers Prepared by D F A S Columbus", page 11. DFAS Columbus reviewed the
sample of JVs received from the DoDIG and determined they were properly categorized and had
sufficient documentation. The categorization of JVs continues to be based on interpretation of
the guidance. It is possible, based on accountant's interpretation of the D o D F M R and the nature
of the JV, that a JV could be classified in more than one JV Category

The report quoted DFAS Columbus personnel as stating they did not follow guidance and used a
"cheat sheet" to prepare JVs. Both comments were taken out of context as quoted in the report.
DFAS Columbus personnel follow the mandated requirements for preparation of the monthly
and quarterly JVs The "cheat sheet" is actually called a JV Category Cheat Sheet and is used as
a quick reference in the preparation of JVs. It's based on the FMR and quarterly guidance.

The report stated that DFAS Columbus did not support the validity and amounts of JV
transactions with the required documentation. The example cited in the report was of JVs to



                                                 4




                                                39 

record Defense Contract Management Agency's (DCMA) undistributed disbursements and
collections. Attached to D C M A ' s JVs for supporting documentation was a schedule or chart
showing the calculation of the undistributed. The schedule included two columns, Treasury and
the D M B S GLAC 47**. If requested, the treasury source (monthly CMR) and the Trial Balance
source (monthly D B M S GLAC) could have been provided. Furthermore, supported
undistributed information is maintained in the Columbus Cash Accountability System (CCAS)
module, which was briefed t o the D o D I G . There is also an independent reconciliation each
month to ensure the posted undistributed matched the CCAS undistributed. CCAS contains all
the support for the undistributed as the amounts can b e traced back to the transaction level. This
access is provided to all auditors to validate DFAS Columbus undistributed information

The report also stated that DFAS Columbus did not document the scope and applicability of the
JVs it prepared. The example cited in the report is unique only t o D C A A The scope for the
D C A A JVs was clearly defined DCAA is not required to map budgetary accounts to establish
proprietary account balances like the other O D O entities.

Estimated Completion Date: This recommendation is considered closed.


   4) Reconcile the adjusted ending trial balances to journal voucher-derived account balances
      to ensure adjustments are not made without journal vouchers and journal vouchers are
      correctly posted.


Management C o m m e n t s : Non-concur. A written SOP is not necessary because the
reconciliation process is already embedded and documented in our management control program
as stated below in 2b.

The report stated that DFAS Columbus approved JVs that were not posted as adjustments or
were not posted correctly. The DoDIG stated that $535 million (ABS) in J V s weren't posted to
USSGLs. DFAS Columbus only reviewed $223 million (ABS) as we were provided analysis
information for four ( D H R A D C A A D e C A and DFAS) of the eight entities. The DTIC
example cited in the report ($157 million ABS), in which the JV did not agree with the posted
adjustment in the workbook, was due to a formula error in the Excel program resulting in reverse
signs to the face page of the manual JVs. However, the entry was imported correctly into
DDRS-AFS based on the crosswalk in the workbook. In addition, $48.9 million (ABS) was due
to monthly JVs which were not relevant to crosswalk to the financial statements as cited by the
DoDIG

Estimated Completion Date: This recommendation is considered closed



2b. Expand the scope of the managers' internal control program and self-evaluation process to
ensure all adjustments 1o financial data are processed and approved in accordance with DoD
Financial Management Regulation 7000.14-R and Quarterly Guidance, Attachment 6C.




                                                 5




                                                40 

accordance with D o D Financial Management 7000.14-R, and Quarterly Guidance, Attachment
6C.

The report staled that DFAS Columbus did not identify the most effective control objectives to
help ensure adjustments were valid, accurate, and approved. All adjustments were valid and
                                    St
necessary for the December 2005, 1 Quarter, FY 2006 financial statements.

The report does not mention all process reviews that were in place during the period of the audit.
The Financial Reporting Division, with new strategic direction from Executive Management,
began implementing a formalized review process during FY 2004 as part of the internal control
program. Additional quarterly control review processes were enhanced as part of the required
test A-123 Appendix A and financial improvement plan initiatives. In addition, DFAS
Columbus also implemented three journal voucher reviews that consist of using the JV log for
100 percent verification of existence and proper signature, abnormal balances, and a statistical
selection of JVs for compliance with DoD Regulation 7000.14-R. Also, a crosswalk review was
implemented that consists of footing, cross-footing, verifying data back to raw source trial
balances, journal vouchers, or supporting adjustments, and comparing crosswalk amounts to the
input data in DDRS.

Estimated Completion Date: This recommendation is considered closed.




                                                41
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
Marvin L. Peek
Scott S. Brittingham
Albert Mode, Jr.
Fatuma M. Marjan
Kristy M. Schenck
Carl L. Adams
Lisandra Perez-Burgos
Bridgett L. Sircy
Samone N. Devoe
Dana M. Fink
